Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW
 OF NORTON HEALTHCARE, INC.,
FOR THE PERIOD JANUARY 1, 2011,
    THROUGH JUNE 30, 2012


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                       Brian P. Ritchie
                                                 Assistant Inspector General
                                                      for Audit Services

                                                          July 2014
                                                        A-04-13-08024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Norton Healthcare, Inc., did not fully comply with Medicare requirements for billing inpatient
and outpatient services, resulting in overpayments of at least $3 million over 1 ½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year 2012, Medicare paid
hospitals $148 billion, which represents 43 percent of all fee-for-service payments; therefore, the
Office of Inspector General must provide continual and adequate oversight of Medicare
payments to hospitals.

The objective of this review was to determine whether Norton Healthcare, Inc. (the Hospital),
complied with Medicare requirements for billing inpatient and outpatient services on selected
types of claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a not-for-profit organization, located in Louisville, Kentucky. It consists of five
acute care facilities: Norton Hospital, a 642-bed hospital; Norton Audubon Hospital, a 432-bed
hospital; Norton Suburban Hospital, a 373-bed hospital; Norton Brownsboro Hospital, a 127-bed
hospital; and Kosair Children’s Hospital, a 263-bed hospital. According to CMS’s National
Claims History data, Medicare paid the Hospital approximately $408 million for 35,562 inpatient
and 155,289 outpatient claims for services provided to beneficiaries during January 1, 2011,
through June 30, 2012.

Our audit covered $22,508,511 in Medicare payments to the Hospital for 2,354 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 230
claims with payments totaling $3,950,255. These 230 claims had dates of service in the period
January 1, 2011, through June 30, 2012 (audit period), and consisted of 138 inpatient and 92
outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 166 of the 230 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 64 claims, resulting in overpayments of $385,891 for the


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                 i
audit period. Specifically, 52 inpatient claims had billing errors resulting in overpayments of
$325,703, and 12 outpatient claims had billing errors resulting in overpayments of $60,188.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $3,002,136 for the audit period.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare program $3,002,136 in estimated overpayments for the audit
        period claims that it incorrectly billed and

    •   strengthen controls to ensure full compliance with Medicare requirements.

NORTON HEALTHCARE COMMENTS

In written comments on our draft report, the Hospital agreed that 45 of the 64 claims were billed
incorrectly and described the actions it had taken and planned to take to address them. However,
the Hospital contended that the calculated error rate substantially overstated the overpayment
amount. Specifically, the Hospital contended that the overpayment calculation for 10 inpatient
services claims reflected total reimbursement for inpatient stays, instead of the net overpayment
(after deducting “expected” Part B reimbursements). The Hospital also contended that the
remaining 19 inpatient claims were not billed in error, and it intends to challenge those claims on
appeal. The Hospital further stated that the use of extrapolation violated statutory mandates
prescribed for CMS and its contractors, violated the Hospital’s substantive due process rights and
fundamental fairness, and could lead to duplicate refunds.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the Hospital’s concerns regarding rebilling for certain services that were denied as
part of this review, we acknowledge its comments; however, the rebilling issue is beyond the
scope of our audit. CMS has issued the final regulations on payment policies (78 Fed. Reg. 160
(Aug. 19, 2013)), and the Hospital should contact its Medicare Administrative Contractor
(MAC) for rebilling instructions. As stated in the report, we were unable to determine the effect
that billing Medicare Part B would have on the overpayment amount because the Hospital had
not billed, and the MAC had not adjudicated, these services prior to the issuance of our draft
report. In addition, the claim errors we identified were not merely the result of differing
opinions; instead, they represented specific actionable items that warranted our
recommendations.

Regarding the Hospital’s objections to our statistical sampling and extrapolation, the use of
statistical sampling and extrapolation have been established by the Federal courts as a viable
audit technique [Chaves County Home Health Serv., Inc. v. Sullivan, 931 F.2d 914, 921 (D.C.


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                             ii
Cir. 1991)]. Furthermore, the Federal courts have approved the use of statistical sampling and
extrapolation as part of audits related to Medicare provided that the auditee has an opportunity to
refute the outcome of the audit [Ratanasen v. California, 11 F.3d 1467, 1471 (9th Cir. 1993)].
Our use of statistical sampling by no means removes the Hospital’s right to appeal the individual
determinations on which the extrapolation is based through the normal appeals process. We
properly executed our statistical sampling methodology in that we have defined our sampling
frame and sample unit, randomly selected our sample, applied relevant criteria in evaluating the
sample, and used statistical sampling software to apply the correct formulas for the extrapolation.

With respect to the Hospital’s concerns about duplicate refunds for reviews of the same claims in
our sampling frame, we took steps to exclude all claims in our sampling frame from future
Recovery Audit Contractor (RAC) review. However, to prevent repaying Medicare twice for
claims that the Hospital has already repaid due to previous RAC review, it should tell CMS
which claims in our sampling frame were previously adjusted and CMS can then reduce the
amount we recommended the Hospital refund ($3,002,136) by the amount already repaid.

Therefore, we continue to recommend that Norton Healthcare refund to the Medicare program
$3,002,136 in estimated overpayments and strengthen controls to ensure full compliance with
Medicare requirements.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                            iii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

        Why We Did This Review ................................................................................................... 1

        Objective ............................................................................................................................. 1

        Background ......................................................................................................................... 1
          The Medicare Program ................................................................................................... 1
          Hospital Inpatient Prospective Payment System ........................................................... 1
          Hospital Outpatient Prospective Payment System ......................................................... 1
          Hospital Claims at Risk for Incorrect Billing ................................................................ 2
          Medicare Requirements for Hospital Claims and Payments ......................................... 2
          Norton Healthcare, Inc. .................................................................................................. 3

       How We Conducted This Review ........................................................................................ 3

FINDINGS ................................................................................................................................... 3

       Billing Errors Associated With Inpatient Claims ......................................................... 4
            Incorrectly Billed as Inpatient or Without a Valid Physician Order ...................... 4
            Incorrectly Billed Diagnosis-Related Group Codes ................................................ 5
            Incorrectly Billed as Separate Inpatient Stays ........................................................ 5
            Manufacturer Credits for Replaced Medical Devices Not Obtained or Reported ........ 6
            Incorrect Source-of-Admission Code .................................................................... 6

       Billing Errors Associated With Outpatient Claims............................................................... 7
            Manufacturer Credits for Replaced Medical Devices Not Reported.......................... 7
            Incorrectly Billed Number of Units ...................................................................... 8
            Insufficiently Documented Evaluation and Management Services ............................... 8

       Overall Estimate of Overpayments ....................................................................................... 9

RECOMMENDATIONS .............................................................................................................. 9

NORTON HEALTHCARE COMMENTS AND OFFICE OF INSPECTOR GENERAL
  RESPONSE.............................................................................................................................. 9
      Norton Healthcare Comments......................................................................................... 9
      Office of Inspector General Response ............................................................................ 9

APPENDIXES

      A: Audit Scope and Methodology ...................................................................................... 11
      B: Sample Design and Methodology.................................................................................. 13
      C: Sample Results and Estimates ....................................................................................... 16



Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                                                               iv
     D: Results of Review by Risk Area .................................................................................... 17
     E: Norton Healthcare Comments........................................................................................ 18




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                                            v
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year 2012, Medicare paid
hospitals $148 billion, which represents 43 percent of all fee-for-service payments; therefore, the
Office of Inspector General (OIG) must provide continual and adequate oversight of Medicare
payments to hospitals.

OBJECTIVE

The objective of this review was to determine whether Norton Healthcare, Inc. (the Hospital),
complied with Medicare requirements for billing inpatient and outpatient services on selected
types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Under the inpatient prospective payment system (IPPS), CMS pays hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services



Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                             1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient same day discharge and readmission,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient psychiatric facility (IPF) emergency department adjustments,

    •   outpatient claims with payments greater than $25,000,

    •   outpatient claims billed for Doxorubicin Hydrochloride, and

    •   outpatient claims billed with evaluation and management (E&M) services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42
CFR § 424.5(a)(6)).




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                               2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

Norton Healthcare, Inc.

The Hospital is a not-for-profit organization located in Louisville, Kentucky. It consists of five
acute care facilities: Norton Hospital, a 642-bed hospital; Norton Audubon Hospital, a 432-bed
hospital; Norton Suburban Hospital, a 373-bed hospital; Norton Brownsboro Hospital, a 127-bed
hospital; and Kosair Children’s Hospital, a 263-bed hospital. For purposes of Medicare billing,
the Hospital submits to Medicare for reimbursement using one unique provider identification that
comprises all five acute care facilities. According to CMS’s National Claims History data,
Medicare paid the Hospital approximately $408 million for 35,562 inpatient and 155,289
outpatient claims for services provided to beneficiaries during January 1, 2011, through June 30,
2012.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $22,508,511 in Medicare payments to the Hospital for 2,354 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 230
claims with payments totaling $3,950,255. These 230 claims had dates of service in the period
January 1, 2011, through June 30, 2012 (audit period), and consisted of 138 inpatient and 92
outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 26 claims
to medical review to determine whether the services were medically necessary.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                               FINDINGS

The Hospital complied with Medicare billing requirements for 166 of the 230 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 64 claims, resulting in overpayments of $385,891 for the
audit period. Specifically, 52 inpatient claims had billing errors resulting in overpayments of

Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                              3
$325,703, and 12 outpatient claims had billing errors resulting in overpayments of $60,188.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors. On
the basis of our sample results, we estimated that the Hospital received overpayments of at least
$3,002,136 for the audit period.

See Appendix B for our sample design and methodology, Appendix C for our sample results and
estimates, and Appendix D for the results of our review by risk area.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 52 of the 138 inpatient claims that we reviewed.
These errors resulted in overpayments of $325,703.

Incorrectly Billed as Inpatient or Without a Valid Physician Order

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). A payment for services furnished to an individual
may be made only to providers of services that are eligible and only if, “with respect to inpatient
hospital services … which are furnished over a period of time, a physician certifies that such
services are required to be given on an inpatient basis for such individual’s medical treatment…”
(the Act, § 1814(a)(3)). Federal regulations state that Medicare Part A pays for inpatient hospital
services only if a physician certifies and recertifies, among other things, the reasons for
continued hospitalization (42 CFR § 424.13(a)). Section 1815(a) of the Act precludes payment
to any provider without information necessary to determine the amount due the provider.

For 29 of the 138 inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that did not meet Medicare criteria for inpatient status and should have been
billed as outpatient or outpatient with observation services. Specifically:

    •   For 24 claims, the Hospital incorrectly billed for beneficiaries whose level of care and
        services provided should have been billed as outpatient or outpatient with observation
        services. For example, one patient was scheduled for a VP Shunt placement. Vital signs
        remained stable during the procedure with no complications post procedure and patient
        was discharged. The services that the Hospital provided did not meet the intensity that is
        consistent with an inpatient level of care and could have been provided in an observation
        status. In addition, for two of these claims, the medical records indicated that an
        Advanced Registered Nurse Practitioner, rather than a physician, ordered inpatient
        admission.

    •   For five claims, the beneficiary met the level of care and services provided; however, the
        Hospital incorrectly billed for inpatient services when the medical records did not contain
        valid orders signed by a physician.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                               4
The Hospital stated that these overpayments occurred because staff members were not able to
assess and review 1- to 2-day inpatient admissions prior to patient discharge, or the admitting
physicians were not readily available to discuss the cases with the staff to ensure that patients
were ordered into the appropriate status. As a result, the Hospital received overpayments of
$198,518. 2

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (chapter 1,
§ 80.3.2.2).

For 10 of the 138 inpatient claims, the Hospital billed Medicare for incorrect DRG codes. For
example, the Hospital submitted a claim with a diagnosis of unspecified psychosis. However,
the medical records did not support the coding of this diagnosis. The psychiatry consultation
revealed depression and anxiety, but no definitive diagnosis was made for unspecified psychosis.
Therefore, medical review determined that the diagnosis coding should have been for altered
mental status. The Hospital stated that these errors occurred because, at the time of coding a
patient record, some information necessary to code the record may not have been clear or
available to the coder. As a result of these errors, the Hospital received overpayments of
$61,387.

Incorrectly Billed as Separate Inpatient Stays

The Manual, chapter 3, § 40.2.5, states: “When a patient is discharged/transferred from an acute
care Prospective Payment System (PPS) hospital and is readmitted to the same acute care PPS
hospital on the same day for symptoms related to, or for evaluation and management of, the prior
stay’s medical condition, hospitals shall adjust the original claim generated by the original stay
by combining the original and subsequent stay onto a single claim.”

For 6 of the 138 inpatient claims, the Hospital incorrectly billed Medicare separately for related
discharges and readmissions in the same day. Hospital officials stated that these errors occurred
because of inaccurate coder interpretations for the need to combine the stays. As a result of these
errors, the Hospital received overpayments of $38,414.




2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                              5
Manufacturer Credits for Replaced Medical Devices Not Obtained or Reported

The CMS Provider Reimbursement Manual states: “Implicit in the intention that actual costs be
paid to the extent they are reasonable is the expectation that the provider seeks to minimize its
costs and that its actual costs do not exceed what a prudent and cost conscious buyer pays for a
given item or service. If costs are determined to exceed the level that such buyers incur, in the
absence of clear evidence that the higher costs were unavoidable, the excess costs are not
reimbursable under the program” (Pub. No. 15, part I, § 2102.1). 3

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of a device, or (3) the provider receives a credit equal to 50 percent or more of
the cost of the device (42 CFR § 412.89). Federal regulations require all payments to providers
of services must be based on the reasonable cost of services (42 CFR § 413.9). The Manual
states that to bill correctly for a replacement device that was provided with a credit, the hospital
must code its Medicare claims with a combination of condition code 49 or 50 along with value
code “FD” (chapter 3, § 100.8).

For 3 of the 138 inpatient claims, the Hospital incorrectly billed Medicare for medical devices
that were under warranty.

    •   For two claims, the Hospital did not obtain the credit for a replaced medical device for
        which a credit was available under the terms of the manufacturer’s warranty.

    •   For one claim, the Hospital received a reportable credit from a manufacturer for a
        replaced device but did not adjust its inpatient claim with the proper condition and value
        code to reduce payment as required.

The Hospital stated that these errors occurred because it had an unwritten process in place that
either failed to confirm or delayed confirmation of warranty credit information, and the Hospital
did not ensure appropriate application of the credit to the claim. As a result, the Hospital
received overpayments of $27,003.

Incorrect Source-of-Admission Code

CMS increases the Federal per diem rate for the first day of a Medicare beneficiary’s IPF stay to
account for the costs associated with maintaining a qualifying emergency department. CMS
makes this additional payment regardless of whether the beneficiary used emergency department
services; however, the IPF should not receive the additional payment if the beneficiary was

3
  Section 2103 further defines prudent buyer principles and states that Medicare providers are expected to pursue
free replacements or reduced charges under warranties. Section 2103(C)(4) provides the following example:
“Provider B purchases cardiac pacemakers or their components for use in replacing malfunctioning or obsolete
equipment, without asking the supplier/manufacturer for full or partial credits available under the terms of the
warranty covering the replaced equipment. The credits or payments that could have been obtained must be reflected
as a reduction of the cost of the equipment.”


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                           6
discharged from the acute care section of the same hospital (42 CFR § 412.424 and the Manual,
chapter 3, § 190.6.4). The Manual also states that IPFs report source-of-admission code “D” to
identify patients who have been transferred to the IPF from the same hospital (chapter 3,
§ 190.6.4.1). An IPF’s proper use of this code is intended to alert the Medicare contractor not to
apply the emergency department adjustment.

For 4 of the 138 inpatient claims, the Hospital incorrectly coded the source-of-admission for
beneficiaries who were admitted to its IPF upon discharge from its acute care section. Hospital
officials stated that the errors occurred because staff did not correctly interpret the admission
source. As a result, the Hospital received overpayments of $381.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 12 of the 92 outpatient claims that we reviewed.
These errors resulted in overpayments of $60,188.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if: (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 4

For 2 of the 92 outpatient claims, the Hospital incorrectly billed Medicare for medical devices
that were under warranty. The Hospital received full credit for replaced devices but did not
report the “FB” modifier and reduced charges on its claims.

The Hospital stated that these errors occurred because it had an unwritten process in place that
either failed to confirm or delayed confirmation of warranty credit information, and the Hospital
did not ensure appropriate application of the credit to the claim. As a result, the Hospital
received overpayments of $19,708. Prior to completion of our fieldwork, the Hospital took
corrective action to improve communication and documentation among clinical staff, vendor
representatives, and hospital departments and published a policy, effective May 2013, for
replaced medical devices.




4
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                         7
Incorrectly Billed Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, the Manual states: “The definition of service units ... is the number of
times the service or procedure being reported was performed” (chapter 4, § 20.4). The Manual,
chapter 17, section 90.2.A, further states: “It is … of great importance that hospitals billing for
[drugs] make certain that the reported units of service of the reported HCPCS code are consistent
with the quantity of a drug … that was used in the care of the patient.” If the provider is billing
for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is required, units
are entered in multiples of the units shown in the HCPCS narrative description. For example, if
the description for the code is 50 mg, and 200 mg are provided, units are shown as 4 ….”

For 3 of the 92 outpatient claims, the Hospital incorrectly billed Medicare for the number of
units.

       •   For two claims, the Hospital incorrectly submitted claims to Medicare with the incorrect
           number of units of service. For example, rather than billing 1 unit for a right eye
           procedure, the Hospital billed 31 units. The Hospital indicated that one overpayment
           occurred because of a documentation error, and the other overpayment was caused by a
           change in the billing system and the intermittent failure of an established system edit. As
           a result, the Hospital received overpayments of $39,751.

       •   For one claim, the Hospital incorrectly submitted a claim to Medicare with an incorrect
           number of units for Doxorubicin Hydrochloride. 5 For this claim, rather than billing five
           units of Doxorubicin Hydrochloride, the Hospital billed six units. The Hospital indicated
           that this occurred as the result of human error when the pharmacist did not document
           waste in accordance with the normal procedure. As a result of this error, the Hospital
           received an overpayment of $407.

Insufficiently Documented Evaluation and Management Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

For 7 of the 92 outpatient claims, the Hospital incorrectly billed Medicare for E&M services that
were insufficiently documented in the medical records. The Hospital stated that these errors
occurred because of system error and staff confusion. As a result of these errors, the Hospital
received overpayments of $322.




5
    This drug is used in the chemotherapy treatment of a wide range of cancers.


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                8
OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $3,002,136 for the audit period.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    • refund to the Medicare program $3,002,136 in estimated overpayments for the audit period
      claims that it incorrectly billed and

    • strengthen controls to ensure full compliance with Medicare requirements.

  NORTON HEALTHCARE COMMENTS AND OFFICE OF INSPECTOR GENERAL
                         RESPONSE

Norton Healthcare Comments

In written comments on our draft report, the Hospital agreed that 45 of the 64 claims were billed
incorrectly and described the actions it had taken and planned to take to address them. However,
the Hospital contended that the calculated error rate substantially overstated the overpayment
amount. Specifically, the Hospital contended that the overpayment calculation for 10 inpatient
services claims reflected total reimbursement for inpatient stays, instead of the net overpayment
(after deducting “expected” Part B reimbursements). The Hospital also contended that the
remaining 19 inpatient claims were not billed in error, and it intends to challenge those claims on
appeal. The Hospital further stated that the use of extrapolation violated statutory mandates
prescribed for CMS and its contractors, violated the Hospital’s substantive due process rights and
fundamental fairness, and could lead to duplicate refunds. The Hospital’s comments are
included as Appendix E.

Office of Inspector General Response

In response to the Hospital’s concerns regarding rebilling for certain services that were denied as
part of this review, we acknowledge its comments; however, the rebilling issue is beyond the
scope of our audit. CMS has issued the final regulations on payment policies (78 Fed. Reg. 160
(Aug. 19, 2013)), and the Hospital should contact its Medicare Administrative Contractor
(MAC) for rebilling instructions. As stated in the report, we were unable to determine the effect
that billing Medicare Part B would have on the overpayment amount because the Hospital had
not billed, and the MAC had not adjudicated, these services prior to the issuance of our draft
report. In addition, the claim errors we identified were not merely the result of differing
opinions; instead, they represented specific actionable items that warranted our
recommendations.

Regarding the Hospital’s objections to our statistical sampling and extrapolation, the use of
statistical sampling and extrapolation have been established by the Federal courts as a viable

Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                             9
audit technique [Chaves County Home Health Serv., Inc. v. Sullivan, 931 F.2d 914, 921 (D.C.
Cir. 1991)]. Furthermore, the Federal courts have approved the use of statistical sampling and
extrapolation as part of audits related to Medicare provided that the auditee has an opportunity to
refute the outcome of the audit [Ratanasen v. California, 11 F.3d 1467, 1471 (9th Cir. 1993)].
Our use of statistical sampling by no means removes the Hospital’s right to appeal the individual
determinations on which the extrapolation is based through the normal appeals process. We
properly executed our statistical sampling methodology in that we have defined our sampling
frame and sample unit, randomly selected our sample, applied relevant criteria in evaluating the
sample, and used statistical sampling software to apply the correct formulas for the extrapolation.

With respect to the Hospital’s concerns about duplicate refunds for reviews of the same claims in
our sampling frame, we took steps to exclude all claims in our sampling frame from future
Recovery Audit Contractor (RAC) review. However, to prevent repaying Medicare twice for
claims that the Hospital has already repaid due to previous RAC review, it should tell CMS
which claims in our sampling frame were previously adjusted and CMS can then reduce the
amount we recommended the Hospital refund ($3,002,136) by the amount already repaid.

Therefore, we continue to recommend that Norton Healthcare refund to the Medicare program
$3,002,136 in estimated overpayments and strengthen controls to ensure full compliance with
Medicare requirements.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                           10
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $22,508,511 in Medicare payments to the Hospital for 2,354 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 230
claims with payments totaling $3,950,255. These 230 claims had dates of service in the period
January 1, 2011, through June 30, 2012 (audit period), and consisted of 138 inpatient and 92
outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 26 claims
to medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from April 2013 through January 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
        Claims History File for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   selected a stratified random sample of 230 claims totaling $3,950,255 (Appendix C) for
        detailed review;

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                            11
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the sampled claims;

    •   requested the Hospital to conduct its own review of the sampled claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for classifying hospital stays (outpatient, observation,
        or inpatient admission), case management, coding, and Medicare claim submission;

    •   used CMS’s Medicare contractor medical review staff to determine whether 26 sampled
        claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample to estimate the Medicare overpayments to the Hospital
        (Appendix C); and

    •   discussed the results of the review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                            12
                 APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was inpatient and outpatient claims paid to the Hospital for services provided to
Medicare beneficiaries during January 1, 2011, through June 30, 2012.

SAMPLING FRAME

According to CMS’s National Claims History data, for 36 risk areas, Medicare paid the Hospital
$232,601,238 for 13,162 inpatient and 49,593 outpatient claims for services provided to
beneficiaries during January 1, 2011, through June 30, 2012.

From these 36 risk areas, we selected 10 consisting of 41,071 claims totaling $161,688,067 for
further review.

We then removed the following:

    •   $0 paid claims;

    •   claims duplicated within individual risk areas by assigning each inpatient claim that
        appeared in multiple risk areas to just one category based on the following hierarchy:

            o   Inpatient Manufacturer Credits for Replaced Medical Devices,
            o   Inpatient Claims Billed With High-Severity-Level DRG Codes,
            o   Inpatient Claims Paid in Excess of Charges, and
            o   Inpatient Short Stays; and

    •   claims under review by the RAC as of March 12, 2013.

This resulted in a sampling frame of 2,354 unique Medicare claims in 10 risk areas totaling
$22,508,511.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                            13
                                                                        Number of     Amount of
                                 Risk Area                               Claims       Payments
    1.  Inpatient Manufacturer Credits for Replaced Medical Devices            11        $245,741
    2   Inpatient Claims Billed With High-Severity-Level DRG Codes          1,356      13,253,818
    3.  Inpatient Claims Paid in Excess of Charges                             34         788,533
    4.  Inpatient Short Stays                                                 722       5,259,149
    5.  Inpatient Same Day Discharge and Readmission                            9         136,368
    6.  Inpatient Psychiatric Facility Emergency Department
        Adjustments                                                             4           18,457
    7. Outpatient Manufacturer Credits for Replaced Medical
        Devices                                                                 2           28,037
    8. Outpatient Claims Billed With Evaluation and Management
        Services                                                               98          16,220
    9. Outpatient Claims with Payments Greater than $25,000                    45       2,476,823
    10. Outpatient Claims Billed for Doxorubicin Hydrochloride                 73         285,365
         Total                                                              2,354     $22,508,511

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into 10 strata based on risk
area.

SAMPLE SIZE

We selected 230 claims for review as follows:

                                                                             Claims in Claims
                                                                             Sampling    in
Stratum                           Risk Area                                   Frame    Sample
1       Inpatient Manufacturer Credits for Replaced Medical Devices                 11      11
2       Inpatient Claims Billed With High-Severity-Level DRG Codes
                                                                                    1,356        50
3            Inpatient Claims Paid in Excess of Charges                                34        34
4            Inpatient Short Stays                                                    722        30
5            Inpatient Same Day Discharge and Readmission                               9         9
6            Inpatient Psychiatric Facility Emergency Department
             Adjustments                                                               4             4
7            Outpatient Manufacturer Credits for Replaced Medical Devices              2             2
8            Outpatient Claims Billed With Evaluation and Management
             Services                                                                 98         30

Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                           14
                                                                            Claims in Claims
                                                                            Sampling    in
Stratum                           Risk Area                                  Frame    Sample
9       Outpatient Claims With Payments Greater Than $25,000                       45      30
10      Outpatient Claims Billed for Doxorubicin Hydrochloride                     73      30
          Total                                                                 2,354     230

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 2, 4, 8, 9, and 10. After generating the
random numbers for strata 2, 4, 8, 9, and 10, we selected the corresponding claims in each
stratum. We selected all claims in strata 1, 3, 5, 6, and 7.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of Medicare
overpayments paid to the Hospital during the audit period.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                         15
                     APPENDIX C: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                                            Number of
                                                                            Incorrectly
             Frame                                                             Billed            Value of
              Size          Value of    Sample              Value of         Claims in        Overpayments in
Stratum     (Claims)         Frame       Size               Sample            Sample              Sample
    1              11          $245,741        11             $245,741                    3            $27,003
    2           1,356        13,253,818        50              487,163                   11             52,794
    3              34           788,533        34              788,533                    9            102,622
    4             722         5,259,149        30              194,144                   18            103,039
    5               9           136,368         9              136,368                    7             39,864
    6               4            18,457         4               18,457                    4                381
    7               2            28,037         2               28,037                    2             19,708
    8              98            16,220        30                5,579                    7                322
    9              45         2,476,823        30            1,924,301                    2             39,751
   10              73           285,365        30              121,932                    1                407
 Total          2,354       $22,508,511       230           $3,950,255                   64          $385,891

ESTIMATES

                      Estimated Value of Overpayments for the Audit Period
                       Limits Calculated for a 90-Percent Confidence Interval

                                        Point Estimate              $4,102,213
                                        Lower limit                 $3,002,136 6
                                        Upper limit                 $5,242,448




6
 In accordance with OAS policy, we did not use the results from strata 9 and 10 in calculating the estimated
overpayments. Instead, we added the actual overpayments from strata 9 ($39,751) and 10 ($407) to the lower limit
($2,961,978), which resulted in an adjusted lower limit of $3,002,136.


Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                          16
                    APPENDIX D: RESULTS OF REVIEW BY RISK AREA


                                                                  Value of           Claims             Value of
                                                Selected          Selected          With Over-           Over-
                Risk Area                       Claims            Claims            payments            payments
  Inpatient

Short Stays                                             30            $194,144                   18         $103,039

Claims Paid in Excess of Charges                        34             788,533                    9          102,622
Claims Billed With High-Severity-
                                                        50             487,163                   11              52,794
Level DRG Codes
Same Day Discharge and
                                                          9            136,368                    7              39,864
Readmission
Manufacturer Credits for Replaced
                                                        11             245,741                    3              27,003
Medical Devices
Psychiatric Facility Emergency
                                                          4              18,457                   4                381
Department Adjustments
 Inpatient Totals                                      138         $1,870,406                    52         $325,703


  Outpatient
Claims with Payments Greater Than
                                                        30         $1,924,301                     2          $39,751
$25,000
Manufacturer Credits for Replaced
                                                          2              28,037                   2              19,708
Medical Devices
Claims Billed for Doxorubicin
                                                        30             121,932                    1                407
Hydrochloride
Claims Billed With Evaluation and
                                                        30                5,579                   7                322
Management Services
  Outpatient Totals                                     92         $2,079,849                    12          $60,188


 Inpatient and Outpatient Totals                       230         $3,950,255                    64         $385,891


        Notice: The table above illustrates the results of our review by risk area. In it, we have organized
        inpatient and outpatient claims by the risk areas we reviewed. However, we have organized this
        report’s findings by the types of billing errors we found at the Hospital. Because we have
        organized the information differently, the information in the individual risk areas in this table does
        not match precisely with this report’s findings.




Medicare Compliance Review of Norton Healthcare, Inc. (A-04-13-08024)                                                17
                   APPENDIX E: NORTON HEALTHCARE COMMENTS

         NORTON
         HEAlTHCARE 	                                                                RO. Box35070
                                                                                     Louisville, KY 4023 1-5070
                                                                                     ( 502 1 619-8025




 May 8, 2014

 VlA Federal Express 0\l·ernigbt Delivery and Electronic Mail

 Lori S. Pilcher
 Regional Inspector General for Audit Services
 Department of Health and Human Services
 Office oflnspector General
 Office of Audit Services, Region fV
 61 Forsyth Street, SW, Suite 3T41
 Atlanta, GA 30303

 Re: 	   Provider 's Respouse to Draft Report N umber A -04-13-08024,
         Medicare Compliance R eview o.f Norton Healtllcare, In c.
         for tlte Period January 1,2011, Tltrouglz June 30,2012

 Dear Ms. Pilcher:

          We are in receipt of the U.S. Department of Health and Human Services, Office of
 Inspector General ("OIG" ) draft report entitled '•Medicare Compliance Review of Norton
 Healthcare, lnc . .for the Period January 1, 2011 Through June 30, 20 12," ("Draft Report") and
 your accompanying letter, requesting Norton Healthcare, Inc.'s ("Norton" or "Hospital ")
 response withln thirty days. In compliance with your office's directive, this letter responds to the
 draft. audit report, its findings and its recommendations.

         Norton appreciates the oppmtunity to provide this response to yom office to w1derscore
 its commitment to Strengthening its internal controls to address the audit findi ngs with which it
 concurs. We also appreciate the opportunity to advise your office ofthe findings wi~h which we
 disagree , and to request that tl1ose findings and recommendations be reviewed and revised
 accordingly. In addition, we respectfully request that, prior to the determination of the Medicare
 Overpayment, the Hospital be allowed, pursuant to Medicare program guidance, to refund and
 rebill those claims with which it concurs as the rebilling will greatly reduce the estimated
 overpayment amount. Completing the refunding and rebilling of claims for inpatient services
 that should have been billed as outpatient will result in a more accurate overpayment
 detenninat]on and reduce the costs of further adm ini strative review, which benefits t be Medicare
 program, its contractors and its beneficiaries.

 I. 	    FACTUAL BACKGROUND

         Norton is a not-for-profit bealthcare provider located in Louisville, Kenh1cky, and
 consjsts of five acute care campuses: Norton Hospital, a 624-bed hospital ; Norton Audubon
 Hospital, a 432-bed hospital ; Norton Suburban Hospital, a 373-bed hospital ; Norton Brownsboro
 Hospital , a 127-bed hospital ~ and Kosair Children' s Hospital, a 263-bed hospital. Norton is




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                                   18
 LoriS. Pilcher
 May8, 2014
 Page 2


 dedicated to providing the highest-quality, compassionate care to its patients, their families, and
 the community we serve. In addition to providing the highest-quality care to our patients,
 Norton, through its compliance program, is committed to ensuring the integrity of our clinical
 documentation to support overall clinical decision making and accurate coding and billing of
 patient services and ensuring the ser vices provided to our patients are both reasonable and
 necessary to best serve and meet our patients' needs and expectations. We routinely conduct
 internal and externaJ audits of the clinical documentation, assess medical decision making,
 evaluate for the appropTiate charging and the ass igrunent of coding and diagnostic related groups
 (" DRG") indicators, perform ongoing rnonitoring of the billing of patient services, monitor
 reimbursement to ensure appropriateness of monies received for services provided, and modify
 our processes when necessary to ensure compliance with our standards of care, Medicare
 program guidance, and applicable regulatory guidance and laws.

          As relevant here, in 2013 the OIG began an audit of the Hospital as part of a national
 a1.1diting initiative. The audit sought to identify whether the Hospital was complying with
 government billing requirements for claims that the OlG had deemed to be at risk for
 noncompliance. Specifically, the audit focused on ten claim-risk areas: (1) inpatient claims for
 shoxi stays; (2) inpatient claims paid in excess of charges; (3) inpatient claims billed with high­
 severity-level DRG codes; (4) inpatient same day discharges and readm issions; (5) inpatient
 claims involving medical device manufacturer credits for repJaced devices; (6) outpatient claims
 involving medical device manufacnu·er credits for replaced devices; (7) inpatient psychiatric
 facility ("JPF") emergency department adjustments; (8) outpatient claims exceeding $25,000:
 (9) outpatient claims bHJed for Doxorubicin Hydrochloride; and (1 0) outpatient claims billed
 with evaluation and management ("E& M") services ("Risk Areas").

         The Audit «covered $22,508,511 in Medicare payments to the Hospital for 2,354 claims
 that were potentially at risk for billing errors."' The OTG then selected and reviewed a stratified
 random sample of 230 claims (138 inpatient and 92 outpatient), whose Medicare payments
 totaled $3,950,255.2 The OIG concluded that while the Hospital complied with Medicare billing
 requirements for 166 of the 230 inpatient and outpatient claims that it reviewed, it did not fully
 comply with bill ing requirements for 64 claims. According to the Draft Report, the 64 claims
 identified as etTors by the OIG resulted in overpayments of $385, 891. Specifically, the Draft
 Report concluded that "52 inpatient claims had billing elTors resulting in overpayments of
 $325,703, and 12 outpatient claims had billing errors resulting in overpayments of $60, 188:'
 After extrapolation, the Draft Report estimates an overpayment in the amount of $3,002, 136. 3

         Norton has carefully reviewed the Draft Report, and believes it grossly overstates the
 alleged overpayment by Medicare. As outlined below, the Hospital contends that the error rate
 calculated substarttially overstates the overpayment amount, as the overpayment calculation for
 10 claims for inpatient services that the Hospital agrees should be rebilled as outpatient services
 reflects total reimbursement for inpatient stays, not the net overpayment (after deductjng

 1
   Draft Rpt. at 3.
 2
   Draft Rpt. at 3.
 3
   Draft Rpt. at 4 & 9 .




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                           19
 Lori S. Pilcher
 May8, 2014
 Page3


 expected Part B reimbw-sement), and, therefore~ must be set aside, or at a minimum, recalculated.
 The Hospital also challenges the Draft Report's conclusion that 19 other claims for inpatient
 services were billed in error. Given the complexity involved in determining the approptiate
 patient-care setting ru1d the significant reversal rate for appeals of previously denied inpatient
 claims, the OIG's use of extrapolation has compounded an error rate that js questionable, at best,
 and is being contested in this response, and if not reviewed and revised before the final audit is
 released, will be challenged on appeal. For these reasons, Norton also contends that the use of
 extrapolation is legally unfounded, contravenes the Social Security Act, and is otherwise
 arbitrary and capricious,

 n. 	    RESPONSE TO EXTRAPOLATION AND OVERPAYMENT CALCULATIONS

         A. 	    OVERPAYMENT AMOUNTS ASSOCIATED WITH INPATIENT CLAIMS
                 THAT SHOULD HAVE BEEN PAID AS OUTPATIENT CLAIMS AND ANY
                 ATTENDANT EXTRAPOLATION MUST BE BASED ON THE DIFFERENCE
                 BETWEEN THE PART A AND PART B PAYMENTS THAT WILL BE MADE
                 WHEN THE CLAIM IS RBBILLED, NOT ON THE FULL PART A
                 PAYMENT.

         As noted above, the OlG auditOT's findings indicate that Norton complied with Medicare
 billing requirements for 166 of the 230 claims it reviewed. l'he OIG contends, however, that the
 Hospital did not fully comply with Medicare billing requirements for the remaining 64 claims,
 resulting in alleged overpayments of $385,891 for the audit period. The Draft Report claims that
 52 inpatient claims had billing eiTors resulting in alleged overpayments of $325,703, and 12
 outpatient claims had errors resulting in alleged overpayments of $60,188. It also alleged that
 Norton incorrectly billed 29 of 138 sampled claims to Medicare Part A for beneficiary inpatient
 stays that should have been billed as outpatient or outpatient with observation services. The
 Draft Report claims Norton received overpayments totaling $198,518 for the 29 claims
 eJToneously billed as inpatient services.

         The 29 inpatient claims the Audit determined should have been billed as outpatient
 servi ces form d1e basis of the Hospital's objection to the use of extrapolation. The Hospital
 disagrees that extrapolation is appropriate here given that it challenges, on the merits, 19 out of
 the 29 claims, i.e., 65% of the alleged errors regarding inpatient/outpatient billing ('(Contested
 Claims"). See Section III below, at 7-8. Moreover, for the 10 Uncontested Claims, i.e., those
 that the Hospital concurs should be rebilled as outpatient services ("Uncontested Claims"), the
 Hospital contends that its rebilling of the Uncontested Claims to Part B must offset the
 overpayment, and, 1herefore, further undermines the calculated overpayment and the use of
 extrapolation in this instance.

         Pursuant to Medicare program guidance, the Hospital has already commenced the process
 of refunding and rebilling for the 10 Uncontested Claims, and it is actively working with its
 MAC to cancel, refund and rebill those claims for payment under Medicare Part B. The Hospital
 estimates that the difference between the original inpatient reimbursement payment and the
 outpatient reimbursement will substantially reduce the determined Overpayment for the



.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                          20
 LoriS. Pilcher
 May8, 2014
 Page4


 Uncontested Claims. This inpatient/Outpatient Differential will confirm that the estimated
 overpayment is clearly en·oneous. See. e.g., 42 C.F.R. § 41 2.3; CMS 1455-F (Oct. l , 2013); 78
 Fed. Reg. 50496 (Aug. 19, 2013); CMS 1455-R (Mar. 13 ~ 2013); 78 Fed. Reg. 16632 (Mar. 18,
 2013); O 'Connor Hospital, 2010 WL 425107, Med. & Med. GD (CCH) P 122133 (HHS Feb. 1,
 2010); Indiana Univ. Health Methodist Hosp., 2012 WL 3067987 , at *10, Docket No. M-12-872
 (HHS May 17, 2012) (upholding AL.T ruling that hospital was entitled to reimbursement for the
 full outpatient services tmder Medicare Part B even though hospital initially billed the claim as
 inpatient service under Medicare Part A). For those claims, ihe Draft Report shows the total
 reimbursement amount as an overpayment error when in fact this is not accurate. The
 overpayment error should be reflective of the "actuaJ overpayment'' amount, i .e., the net, not the
 gross, amount, which is consistent with current law. 4 Indeed, the Draft Report concedes at page
 5, footnote 2, that the Part B payments sho uld be offset against the overpayment.

         Therefore, consistent with the Final Rule and the OIG' s concession in its Draft Rep01t,
 Norton respectfully requests that the OIG wait until all rebilling is completed for these
 Uncontested Claims before it recalculates the overpayment and modifies its recommendations, as
 it believes doing so is more accurately aHgned with the law. That is, the recalculation of the
 alleged overpayment for the 10 Uncontested Claims should be held in abeyance until aJl of those
 claims have been reprocessed by the MAC. Thereafter, the overpayment may be recalculated by
 determining the difference between the origjnaJ inpatient reimbursement and the outpatient
 reimbursement the Hospital received after it completed the rebilling of the Uncontested Claims.
 In doing so, the Hospital is properly compensated for medically necessary services provided to
 the Medicare Beneficiary. Failing to do the same before extrapolating an error rate is statistically
 invaJid, contrary to federal law and obviously unfair. 5

          B.      USE OF EXTRAPOLATION VIOLATES STATUTORY MANDATES.

         The authority of CMS and its contractors to extrapolate is subject to strict statutory and
 regulatory limits. The Social Security Act provides that:




 4
  On March 13,2013, CMS 1455-R was :issued, in which the Administrator ofCMS referred to the above-noted ALJ
 decision and endorsed hospitals being paid ''under Medicare Part B following a denial of a Medicare Part A hospital
 inpatient claim .. . [if] an inpatient admission was [found] not reasonable and necessary under section 1862(a)( l)(A)
 of the Social Security Act.'' Centers for Medicare & Medicaid Services, RuJing No. CMS-1455-R (Mar. 13, 20 13),
 at 1. CMS Ruling 1455~R remains applicable to these claims pursuant to Final Rule CMS-1455-F, as these inpatient
 claims have dates ofadmission before October I, 2013, and were denied after September 30,2013, on the ground
 that the medical care was reasonable and necessary but the inpatient admission allegedly was not.

 5
   Norton continues to maintain that given the decline in the error rate once the Part 8 repayments on the rebilled
 claims are taken into account, the OIG shou ld abandon the Audjt's use of extrapolation altogether, and confine the
 overpayment demand to actual overpayments 011 those claims.




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                                             21
 LoriS. Pilcher
 May 8. 	2014
 Page5


                  a Medicare contractor may not use extrapolation to determine
                  overpayment amounts to be recovered by recoupment, offset, or
                  otherwise unless the Secretary determines that (A) there is a
                  s ustained or high level of payment error; or (B) documented
                  educational intervention bas failed to correct the payment error.

 42 U.S.C. § 1395ddd(±)(3). While neither the Act nor the applicable regulations define the tetm
 «high error rate,'' or suggest the criteria for identifying those instances where "educational
 intervention has failed," the preamble to the implementing regulations addressing e>.irapolation
 explains that extrapolation is merely a method of determining an overpayment. It further
 provides that " the determination of a sustained or high error rate will be used as the basis for a
 contractor undeziaking further review of claims submitted by the provider or supplier." 74 Fed.
 Reg. 65296, 65303-04 (Dec. 9, 2009).

        Decisions from the Office of Medicare Hearings and Appeals conf1rm that no basis for
extrapolation exists in the absence of either documentation concerning a finding of a high error
rale or a documented failure of response to education. See, e.g., Cabarrus Podiatry Clinic Claim
for Part B Benefits, All Appeal No . 1-127356701 (Dec. 14, 2007). At a minimum, therefore, the
 OIG must document its findings that there exists a high rate of error or a thllW'e of education
betore extrapolating the findings of a statistical sample to a broader universe of claims. Because
the oro failed to address either of the statutory criteria required for use of extrapolation, no basis
existed for the application of its use in the instant case. Norton therefore objects to the
recommendation that an extrapolated overpayment of $3,002, 136 be recouped from the Hospital.

         C. 	     EXTRAPOLATION VIOLATES NORTON ' S SUBSTANTIVE DUE PROCESS
                  RIGHTS AND VIOLATES FUNDAMENTAL F AJRNESS.

        A review of the 90 Medicare Compliance Review audit repmis the OlG has issued
 publicly in the past three years demonstrates that all but 10 of them were based on a
 ·'judgmental" sampling methodology. Additionally, those hospitals that had the "judgmental' '
 sampling methodology applied had to refund only the overpayments for the claims actually
 reviewed as part of the audit. In other words, io contrast to what has been recommended here,
 the oro did not require repayment based on extrapolation of the audit results fi·om 80 of the
 other hospitals subject to lhese compliance audits.

         While Norton acknowledges that the OIG has authority to perform the Medicare
 Compliance Review audits, it believes, under the circumstances presented, which involve
 medical necessity determinations, it is unfair to extrapolate the sample results here. The process
 of determining "medical necessity" for inpatients is a "complex decision making process" and is
 a "gray area" at best. See, e.g., CMS, The Medicare Recovery Audit Contractor (RAC) Prog ram:
 An Evaluation ofthe 3-Year bemon:i1rarion at 14-15 (June 2008) ("Project Evaluation''). Indeed ,
 billing reviews conducted over the past three years by the Recovery Audit Contractors on behalf
 of the Center for Medicare and Medicaid Services (''CMS") have proven that many claims
 identified as being inappropriate for inpatient status have been subsequently appealed and
 reversed through the administrative appeal process. The American Hospital Association has



.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                             22
 LoriS. Pilcher
 May 8, 201-1
 Page 6


 reported that 41% of medical necessity denials were for 1-day stays where the care was allegedly
 provided in the wrong setting. Of those cases appealed. 72% of the appeals have been reversed
 in the providers' favor. See American Hospital Association, Program Integrity, avai lable at
 http: //www.aha.org/content/13/13-Proginteg.pdf; see also American Hosp. Ass 'n v. Sebelius,
 Case No. 12-cv-0 1770-CKK, D.D.C. 04/ 19/ 13, Complaint 11132-49, Doc. 26.

         The administrative appeals processes and results concerning RAC audits throughout the
 country further substantiate the difficulty in applying the "complex medical decision" process to
 the appropriate setting. Norton therefore contends that the application of the "statistical''
 sampling methodo logy in this case is arbitrary and capricious and maintains that any demand for
 recoupment should be for onJy those claims that were actually audited, as has been the case with
 vittually all of the OIG's previously published hospital Medicare compliance reviews.

         D.       EXTRAPOLATION MAY LEAD TO DUPLICATE REFUNDS.

         As a result of this review, we have additional concerns related to the identification of the
 cases pulled for the sample time frame . During our initial audit meeting, we were infonned that
 the cases in the sample time frame would be excluded from reviews by other government
 contractors. To date we have had a total of 67 claims ejther pulled for another OIG review or
 Recovery Audit Contractor (RAC) review. Because of the failure to securely identify the
 accounts from the sample time frame, and the increasing RAC and other reviews, a potential
 exists that the Hospital could be required to repay Medicare twice for the same alLeged enor.
 The following examples illustrate our concerns:

         • 	 I 9 lnpatient Cases from the sample frame were requested in february 2014 for part of
             a RAC review. After extensive communication with Cigna Government Services
             (COS) and the assistance of the OIG, we were finally able to have those cases
             removed from the RAC review, but those cases sho uld not have been selected at all in
             the frame of cases reviewed.
         • 	 1 Cardiac Implant Case overlapped with an OIG audit of implants, and, again, with
             tbe assistance of the OIG, we were able to have the case removed from review.
         • 	 47 Cases were reviewed on prior RAC audits.

 We would request that the OIG re-evaluate the frame file to ensure that all cases that have been
 requested by any RAC review are removed and to ensure the cases are labeled so that they
 cannot be selected for another review, i.e., removed from the RAC Warehouse altogether.

         Further, we request that, in light of this inaccurate labeling, extrapolation be abandoned
 by the oro because no assurances have been made that these cases will not be pulled for
 additionaJ auditing. We believe that, under the circumstances, it would be statistically invalid
 and unfair for the OIG to adhere to the extrapolation as reconunended in the Draft Report.




Medicare Compliance R eview ofNorton Healthcare, Inc. (A-04-1 3-0802 4)                         23
 LoriS. Pilcher
 May8, 2014
 Page 7


 Til. 	   RESPONSE TO FINDINGS AND RECOMMENDATIONS IN THE DRAFT
          REPORT

          A. 	     THE DRAFT REPORT BILLfNG ERRORS ASSOCIATED WITH INPATIENT
                   CLAIMS.

        The Draft Report states that Norton incorrectly billed Medicare for 52 of the 138
 inpatient claims that it audited, and concludes that the errors resulted in an overpayment of
 $325,703. As explained above, the Hospital does not totally agree with both the findings and
 recommendations in the Draft Report.

          1. 	     Claims Incorrectly Billed as Inpatient or Without a Valid Physician Order.

        The Draft Report states that for 29 of 138 sampled claims, Norton incorrectly billed
 Medicare Part A for beneficiary stays that did not meet Medicare criteria for inpatient status and
 should have been billed as outpatient or outpatient with observation services. As a result, it
 concludes the Hospital received overpayments totaling $198,518.

         ALthough Norton concurs that 10 claims, identified above as the Uncontested Claims,
 were billed in error, it contests on the merits that the remaining 19 claims were incorrectly billed
 with inpatient status. 6 Norton contends that the medical records for the Contested Claims,
 discussed in detail below, clearly support its inpatient admission determinations, and the OIG
 auditors erroneously concluded otherwise.

         Furthe1more, as discussed above in Section A, at 3-4, Norton maintains that overpayment
 calculation for the Uncontested Claims is erroneous because it does not account for the
 Hospital's cancellation, refunding, and rebilling ofthose claims for Part B payment. Hence, as
 the Draft Report even acknowledges, the rebilling of Uncontested Claims for payment under Pru1
 B will have dramatic effect on the overpayment analysis and error rate extrapolation. Therefore,
 Norton respectfully requests that the OIG hold in abeyance any recalcu1ation of the overpayment
 until the Hospital has completed its reprocessing of those claims with its MAC.

                   a. 	     Each of the Contested Claims Mel Medicare Coverage Criteria:
                            Therefore, No Overpayment Occurred.

          Norton disagrees with the Draft Report's findings regarding the 19 Contested Claims, and
 believes further adjudication of those claims will establish that they met Medicare coverage
 criteria, and, therefore, were properly submitted and paid under Medicare Part A. Accordingly,
 no basis exists for recoupment of these specific payrnents, and more importantly, the claim­
 eiTors should be removed from the extrapolation.




 G The Uncontested Claims are Patient Sample Nos.: 28, 60, 99, 101, 104, 105, 106, 1'12, 122, 124; the Contested
 CJairns are Patient Sample Nos.: 14, 19, 25, 30, 40, 42, 46, 58, 74, 87, 98, L02, I 09, 114, I 15, 119, 12 l, 123, 125.




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                                              24
 Lori S. Pilcher
 May8, 2014
 Page8


         Medicare program guidance provides that the "decision to admit a patient is a complex
 medical judgment which can be made only after the physician has considered a number of
 factors," including the patient's medical history, current medical needs, types of facilities
 available, hospital bylaws, admission policies, and the relative approprjateness of treatment in
 each setting. M EDICARE BENEFIT POLICY MANUAL, 10M Pub. 100-02, Ch. ] , § 10. Program
 guidance also states that the decision to admit a patient for inpatient services must be assessed
 based on the evidence that was available to the doctor at the time the decision was made. The
 fact that a patient does well during his or her inpatient stay is irrele,iant to the evaluatio11 of the
 admitting physician ' s decision to admit the patient for inpatient hospital services. Rather, the
 key factors for review are those that were known to the provider at the time of the admission, i.e.,
 the patient's medical needs, medical history, co-morbidities, and the predictability of an adverse
 event. See also QUAUTY IMPROVEMENT ORGANIZATION MANUAL, Ch. 4, § 4110.

         In adherence to this gttidance, Norton utilizes an external physician reviewer to assist in
 evaluating the medical deci sion making for patients c1assified as inpatient or outpatient or
 outpatient with observation services. In addition, our care managers use InterQual ® Level of
 Care Criteria, for severity of illness and intensity of services, for screening patients to ensure
 placement in the proper status.

         Upon patient admission or shOitly thereafter, a member of the Care Management staff
 screens the episode of care and determines the expected needs as well as the appropriate level of
 service to best serve each patient on a case-by-case basis. The care manager, utilizing
 InterQual®. a nationally recognized standard of care criterion, reviews the medical record to
 assess for overaiJ medical necessity, taking into consideration intensity of service, severity of
 illness and level of care required. For cases where the appropriate level of service cannot be
 absolutely determined, those cases are referred to an unbiased and independent physician
 reviewer for analysis. For each ofthe Contested Claims, with which the Hospital disagrees with
 the auditors ' findings , the Hospital has either supporting documentation fi·om that physician
 reviewer or supporting evidence from lnterQual® criteria to confirm that the inpatient level of
 service was the most appropriate level of care and was medically necessary and reasonable in
 order to best serve our patient, pursuant to Medicare coverage criteria, regulations and policies.

          In support of this response, we have appended as examples, at Exhibit A~ a detailed
 clinical analysis of two Contested Claims, Patient Sample Nos. 14 and 114, which we believe
 supp01t our position and require the OIG to review and reconsider its findings and
 recommendations,7 We likewise believe the remaining Contested Claims, Patient Sample Nos.
 19, 25, 30, 40} 42, 46. 58, 74, 87, 98, 102, 109, 115, 119, 121 , 123. 125. met Medicare coverage
 criteria for inpatient admission; therefore, we intend to appeal those Co11tested Claims should the
 010 not modify tbe finding here. Lastly, in the exercise of our appeal rights, we shall request at




 7
  Pursuant to the OIG ' s directive, Exhibit A, which contains patient health information that cannot be redacted
 without a ltering the analysis, is being omitted from the electronic tiling of this letter.




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                                       25
 LoriS. Pilcher
 A!ay 8, 2014
 Page9


 each level of appeal, the OIG's re-evaluation and recalculation of the overpayment for each
 reversa1. 8

          2.       Incorrectly Billed Diagnosis-Related Groups Codes.

        The OIG auditors found that for 10 of 138 inpatient claims, Norton billed Medicare for
 inconect DRG codes. As a result of these errors. the auditors contend that Norton received
 overpayments totaling $61,387.

         Norton recognizes that coding assignment is a process open to coder interpretation of the
 documentation and guidelines available to the coder at the time of their review. After much
 discussion with the OIG auditors, Norton concurs that the 10 claims were in error and, as a
 result, we have resubmitted corrected claims to our MAC.

         N01ton remains committed to ensw.·ing the most appropriate coding indicators are
 assigned to each claim for services p rovided. Norton maintains dynamic policies and procedures
 related to coding assignment to ensure organization-wide consistency and compliance with
 nationally recognjzed standards and guidelines available at the time of the assignment. We will
 continue with our current practice of using intemal and third-party audits, identifying potential
 areas of concern or patterns of errqrs and, in adilition, we will continue to provide ongoing coder
 education to ensure accuracy of diagnostic and procedural coding and DRO assjgrunent.

          3.       Incorrectly Billed as Separate Inpatient Stay.

         The OIG auditors found that for 6 of the 138 sampled claims, Norton incorrectly billed
 Medicare separatel)r for related discharges and readmissions on the same day. As a result of
 these errors, the Draft Report states that Notton received overpayments totaling $38,414.

        Norton concms that the 6 claims were billed in en·or. It should be noted Norton has
 appropriate measmes in place for reviewing and identifying potential same day readmissions.
 For the records in question, the report identified each of these cases as potential combjned
 accounts and . prior to billing, the individual reviewing the cases detennined the accounts sho uld
 remain separate.

          As a result of these findings, Norton has resubmitted cotTected claims to our MAC.

         Norton is confident that its recent completion of coder re-education wHl reduce the
 likelihood of such errors. Norton witl continue reviewing, training and educating its staff to
 sttive to eliminate such errors in the future.

 8
   The Hospital maintains that extrapolation at thjs state of the proceedings is premature and unfounded . The
 Hospital intends to appeal the Contested Claims, and may prevaiJ on most, if not all, of them. As a result, the
 nt1mber oferrors will keep shi ft:ing downward at each level of adjudication requiring repeated monetary adjustments
 and reconciJjations between the MAC, the OIG and the Hospital. Hence, the MAC and tbe OlG will be called upon
 to not only recalculate the alleged overpayment, but also contiJ1Ue to try to justify the legal ity of extrapolation as the
 error rate declines .




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                                                  26
 Lori S. Pilcher
 May8. 2014
 Page 10


         4. 	      Incorrect Reporting of Medical Device Credits.

         The auditors found that for 3 of 138 inpatient claims, Norton incorrectly billed Medicare
 for medical devices that were under warranty. The draft report claims that, as a result of these
 errors, Norton received overpayments totaling $27,003.

        Norton concurs that 3 claims were billed in error. Corrected claims are currently being
 reprocessed with the MAC.

         During this audit, we identified a then cuJTent informal process related to the pursuit and
 reporting of applicable manufacturer rebates for medical devices. We found these measures
 insufficient to meet the Medicare requirement related to billing and reporting such rebates,
 thereby resulting in delays in obtaining manufacturer credit information and inconsistentl y
 communicating watTanty or credit information to the Hospital's billing department, causing
 errors to occur. As a result of our self-audit, a new formal policy was implemented. The policy
 was the result of a meeting with all medical device vendor representatives, and with hospital
 billing, coding, materials management and clinical staff present to ensure proper charging and
 cocting and reporting of applicable credits across all involved. As a result ofthis review, the new
 policy and procedure for explanted and/or replaced medi cal devices was put into place in May
 2013.

         5. 	    Incorrect Source-of-Admission Code.

        The OIG auditors found that for 4 of th e 138 inpatient claims, N01ton incon·ectly coded
 the sow-ce-of-admission for beneficiaries who were admitted to its Inpatient Psychiatric Facility
 upon admission from its acute care setting or emergency services department. As a result, it
 received overpayments of $3 81.

         Norton concurs with these findings and has submitted corrected claims with our MAC.

         Norton is confident that recent changes to the electronic medical record along with the
 change of the inpatient psychiatric unit to the same hospital provider number will reduce the
 likelihood of source-of-admission code errors. Norton will also conduct periodic reviews to
 ensure compliance with Medicare coding and program guidance.

         B. 	      THE DRAFT REPORT                  BILLING       ERRORS   ASSOCIATED       WITlT
                   OUTPATlENT CLAIMS.

        The Draft Report states that Norton inconectly billed Medicare for 12 of the 92
 outpatient claims, resulting in overpayments of$60,188.

         I. 	      Incorrect Reporting of Medical Device Credits.

         The OIG auditors found that for 2 of 92 outpatient claims, Norton incorrectly billed
 Medicare for medical devices that were under warranty. The Draft Report estimates that, as a
 result, Norton received overpayments totaling $19,708 .



.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                          27
LoriS. Pilcher
Jvlay8, 2014
Page 11


        Norton concurs that 2 claims were billed in error. See the corrective actions implemented
for inpatient medical device credits. Nmion has submitted conected claims to our MAC.

        2.       Incorrectly Billed Number ofUnits.

      The OIO auditors found that for 3 of 92 outpatient claims, Norton incorrectly billed
Medicare for the number ofunits.

         Norton concw·s that these 3 claims were billed incotrectly.

        In one instance, there was an incorrect number of units for the drug Doxorubicin
Hydrochloride, resulting in an overpayment of $407. Though we believe the dosage charged was
appropriate and correct, we found the documentation insufficient to justify the additional one
unit of billable and reimbursable pharmaceutical waste.

        In the second instance, we believe the medication was prepared and charged conectly, as
the patient's medical record indicated a change of dosage related to the date of service; however,
the documentation reflected the administration of the originaL lower dosage as having been
administered.

      Norton has provided education to its pharmacy staff regarding the impmtance of waste
documentation and accuracy of medication documentation.

         In the third instance, a computer system-edit update caused the system to stop the
conversion of surgery minutes to a single procedure for the purpose of biJJing. Although the
Hospital concedes the errors occu.rred, it notes that the system-edit error had been identified prior
to this review and all other accow1ts had been corrected.

         Norton has submitted conected claims to our MAC.

         3.      Insuffic1ently Documented Evaluation and Management Services.

       The OIO audito rs also fow1d that for 7 of 92 outpatient claims, Norton incorrectly billed
Medicare for Evaluation and Management Services that were insufficiently documented in the
medical records, resulting in an overpayment of $322.

       Norton concurs that these 7 claims were biJled incorrectly.          Norton has submitted
corrected claims to our MAC.

       The account etTors noted were inadvertent, and resulted from inadequacies in the patient
care system to identify new versus established patients across healthcare settings, when patients
received services at one of our hospitals and subsequently received services in one of our
physician or outpatient settings. The errors occurred due to the complexity of the coding rules
and Hospital coders' subjective jnterpretation of their meaning. Norton has retrained and
educated its staff on the documentation and the billing requirements to avoid fUrther error and to
ensure system-wide U11derstanding ofthe currently applicable regulations and guidelines .



.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                            28
LoriS. Pilcher
A1ay 8, 2014
 Page 12


IV. 	    NORTON'S INTERNAL                  CONTROL          STRUCTURE    AND     CORRECTIVE
         ACTION PLANS

        As part of om Compliance Program, the Hospital is committed to operating in
compliance with all the applicable rules and regulations governirl.g the healthcare industry.
Norton's System Compliance Program has the in:fi~astructure to allow for necessary education
and training with ongoing auditing and monitoring of the various at-risk areas. The hospital
routinely conducts internal coding audits on hospital and physician coders and also engages an
external audit fum to perform an independent assessment on coding comp liance. Even as strong
and effective as our Compliance Program is, exceptions will occur at times given the complexity
of medical decision making and interpretation of clinical documentation leading to accurate
eoding and billing ofpatient claims.

       When exceptions are identified, the Hospital takes appropriate con-ective action as may
be necessary, including refunding claims to its MAC, retraining its staff, conducting follow-up
review either internally or by an external audit firm .

        To ensure that patients are correctly assigned to the appropriate clinical setting
(categorized as either inpatient or outpatient or outpatient observation), the Hospital will
continue to engage an external physician reviewer to assist in evaluating the medical decision
making and our care managers will continue to use fnterQual® Level of Care Criteria for
severity of illness and intensity of services, for screening patients to enstll'e placement in the
most appropriate clinical setting for the patient medical needs.

        To ensure accurate claims regarding credits of medical devices, we have appointed a
compliance staff, knowledgeable in the area of medical devices, who will receive medical device
credit reports on a monthly basis, and the Compliance Department will conduct periodic audits to
confirm billing accuracy.

        Norton takes the audit ftndings very seriously, and has taken affirmative steps to
strengthen internal control structure, increase auditing to better scrutinize claims, and re-educate
staff where opportunities exist to improve accuracy and eliminate confusion. We therefore
accept the opportunity this audit process has provided us to further enhance our commitment to a
strong and effective Compliance Program.

V. 	     CONCLUSION

       For the reasons set forth herein, the Hospital requests that the OIG reconsider its
overpayment calculation and its basis for extrapolation. As the Draft Report acknowledges, a
portion of the alleged overpayment is properly billable under Medicare Part B, and therefore,
those payments. once received, will reduce the current estimated overpayment. Further, we
maintain that several of the Contested Claims will be found to have been properly paid under
Medicare Part A, which will also reduce the estimated overpayment. For these reasons, tbe
Hospital believes extrapolating overpayment damages from these claims is inappropriate, and
requests that the OtG abandon its use here.



.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                           29
Lori S. Pilcher
May8, 2014
Page 13


         We thank you in advance for your consideration ofthe concerns raised in this response.

         If you have any questions on the content of this letter, please contact John Sass, System
Vice President of Compliance/Audit at (502) 629-8422.


                                                  Sincerely~


                                                  /Michael W. Gough/

                                                  Michael W . Gough
                                                  System Senior Vice-President of Operations
                                                  Chief Financial Officer


Encl.: Exhibit A-Medical Necessity Analysis of Patient Sample Nos. 14 & l 14
       (omitted from electronic submission)

cc: John   Sass~ Norton Healthcare,    Inc.




.Medicare Compliance Review ofNorton Healthcare, Inc. (A-04-13-08024)                          30
